                                                        NATIONAL SCIENCE FOUNDATION
                                                         OFFICE OF INSPECTOR GENERAL
                                                           OFFICE OF INVESTIGATIONS

                                                CLOSEOUT MEMORANDUM

 Case Number: Al1070049                                                                         Page 1 of 1



                  We received an anonymous allegation of falsification of photographic images and graphs in a
          publication. 1 Although two ofthe coauthors2 receive NSF award funds,3 the work presented in that
          publication does not appear to have been supported by NSF or relied upon in subsequent proposal
          submissions as prior NSF -supported results. The graduate student authors4 on the publication do not
          appear in any annual or final reports during the relevant time period. Furthermore, the authors do not
          appear to have falsified images based on the materials provided to us. The allegation appears to
          represent only a difference of opinion or a misunderstanding of the presentation of the data.

                    Accordingly, this case is closed.




NSF OlG Form 2 (11/02)
